APPENDIX

APPENDIX
TABLE OF CONTENTS
Appendix A Opinion of the United States Court
of Appeals for the Fifth Circuit
(May 22, 2020) .................................... App. 1a
Appendix B Memorandum Opinion and Order of
the United States District Court for
the Southern District of Texas
(May 09, 2018) ................................... App.17a
Appendix C Amended Final Judgment of the
United States District Court for the
Southern District of Texas
(May 15, 2018) .................................. App. 45a
Appendix D Order denying petition for
rehearing en banc by the United
States Court of Appeals for the
Fifth Circuit
(October 8, 2020) .............................. App. 48a

-App. 1aAPPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-20379
JEFFERY SCHWEITZER; JONATHAN SAPP;
RAUL RAMOS; DONALD FOWLER,
Plaintiffs - Appellants
v.
THE INVESTMENT COMMITTEE OF THE
PHILLIPS 66 SAVINGS PLAN; SAM FARACE;
JOHN DOES 1-10, INCLUSIVE,
Defendants – Appellees
Appeal from the United States District Court
for the Southern District of Texas
Before HIGGINBOTHAM, SMITH, and HIGGINSON,
Circuit Judges. PATRICK E. HIGGINBOTHAM,
Circuit Judge:
Four participants in Phillips 66’s retirement plan bring
this putative class action against the plan’s Investment
Committee for breach of fiduciary duties under the

-App. 2aEmployee Retirement Income Security Act. They allege
that the Defendants failed to monitor properly and divest
ConocoPhillips stock from the retirement plan. The
district court granted Defendants’ motion to dismiss for
failure to state a claim, and Plaintiffs timely appealed. We
affirm.
I.
In 2012, ConocoPhillips Corporation, a large oil and
gas company, spun off Phillips 66 as a separate,
independent company. ConocoPhillips retained its
upstream business, namely exploration and production,
while Phillips 66 took on the downstream business,
including refining, marketing, and transportation
operations.
With the separation, 12,000 ConocoPhillips employees
became employees of Phillips 66. Many of them had held
assets in individual retirement accounts in the
ConocoPhillips Savings Plan at the time of the separation.
These accounts included large investments in two singlestock funds comprised of ConocoPhillips stock. As a result
of the separation, each employee received one share of
Phillips 66 stock for every two shares of ConocoPhillips
stock held in their account. Afterward, Phillips 66
employees had $2.9 billion in ConocoPhillips Plan assets,
including $1.1 billion invested in the ConocoPhillips
Funds. The ConocoPhillips Plan transferred these assets
to the Phillips 66 Savings Plan, the newly established
retirement plan for Phillips 66 employees. After the
transfer, Phillips 66 Plan participants could retain or sell
their investments in the ConocoPhillips Funds, but could
not make new investments in the Funds.
As the Phillips 66 Plan is a defined contribution plan,
each participant has an individual account and benefits are

-App. 3abased on the amounts contributed to that participant’s
account.1 Plan participants decide how much to contribute
to their accounts and how to allocate their assets among
an array of investment options selected by the Plan’s
Investment Committee. The Phillips 66 Plan allows
participants to invest in two single-stock funds comprised
of Phillips 66 stock.2 Just a few months after the spin-off,
the Plan had $1.1 billion invested in the ConocoPhillips
Funds and $0.9 billion in the Phillips 66 Funds. Together,
these funds accounted for 58% of the Plan’s assets.
When ConocoPhillips spun off Phillips 66 on April 30,
2012, ConocoPhillips’s share price was about $55. Over the
next two years, its share price increased by more than
50%, reaching $86 by June 2014. Plaintiffs allege,
however, that by the second half of 2014, there were red
flags indicating ConocoPhillips was a risky investment.
Plaintiffs point to publicly available information, including
declining share prices, uncertainty in the price of oil, and
Berkshire Hathaway’s sale of its stake in ConocoPhillips.
ConocoPhillips’s share price fell to $69 by the end of 2014,
$46 by the end of 2015, and $40 by February 2016. When
Plaintiffs filed this lawsuit in October 2017, the share price
was $50.3

1

A defined benefit plan, by contrast, promises employees fixed
payments and retains full responsibility for investing the plan’s
assets.
2

The Phillips 66 Plan is an Eligible Individual Account Plan,
which like an employer stock option plan “offer[s] ownership in
employer stock as an option to employees.” Amgen Inc. v. Harris, 136
S. Ct. 758, 758 (2016) (per curiam).
3

“We can, of course, take judicial notice of stock prices.” Catogas
v. Cyberonics, Inc., 292 F. App’x 311, 316 (5th Cir. 2008) (unpublished)
(per curiam).

-App. 4aPlaintiffs allege that the Investment Committee and
its members (the “Fiduciaries”) breached their fiduciary
duties of diversification and prudence under ERISA by
failing to independently review the merits of divesting the
ConocoPhillips Funds. According to Plaintiffs, the
Fiduciaries incorrectly believed that ConocoPhillips was a
“qualifying employer securit[y],” an ESOP, and thus
exempt from certain diversification requirements.4
The district court held that Plaintiffs failed to state a
claim based on the duty to diversify because the Phillips
66 participants were not allowed to make new investments
in the ConocoPhillips Funds and could elect to exchange
their assets out of the Funds at any time. It also held that
Plaintiffs’ duty-of-prudence claim was foreclosed by the
Supreme Court’s holding in Fifth Third Bancorp v.
Dudenhoeffer.5 This appeal followed.
II.
“This court reviews de novo a district court’s grant or
denial of a Rule 12(b)(6) motion to dismiss, ‘accepting all
well-pleaded facts as true and viewing those facts in the
light most favorable to the plaintiff[.]’”6 “To survive a
motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’”7 “A claim has facial
plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the

4

See 29 U.S.C. § 1104(a)(2).

5

573 U.S. 409 (2014).

6

True v. Robles, 571 F.3d 412, 417 (5th Cir. 2009) (quoting Stokes
v. Gann, 498 F.3d 483, 484 (5th Cir. 2007)).
7

Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)).

-App. 5adefendant is liable for the misconduct alleged.”8 However,
“the tenet that a court must accept as true all of the
allegations contained in a complaint is inapplicable to legal
conclusions” or “[t]hreadbare recitals of the elements of a
cause of action, supported by mere conclusory
statements.”9
III.
ERISA governs employee benefit plans and their
invested funds. Congress enacted the statute to “promote
the interests of employees and their beneficiaries” in these
funds.10 To that end, ERISA fiduciaries are assigned “a
number of detailed duties and responsibilities, which
include ‘the proper management, administration, and
investment of [plan] assets, the maintenance of proper
records, the disclosure of specified information, and the
avoidance of conflicts of interest.’”11 Their duties to plan
participants are “derived from the common law of trusts”12
and are “the highest known to the law.”13
Section 1104(a)(1) sets out “several overlapping
duties.”14 The duty of prudence requires a fiduciary to
“discharge his duties . . . . with the care, skill, prudence,
8

Id. (citing Twombly, 550 U.S. at 556).

9

Id. (citing Twombly, 550 U.S. at 555).

10

Shaw v. Delta Air Lines, Inc., 463 U.S. 85, 90 (1983).

11

Mertens v. Hewitt Assocs., 508 U.S. 248, 251–52 (1993) (quoting
Mass. Mut. Life Ins. Co. v. Russell, 473 U.S. 134, 142–43 (1985)).
12

Tibble v. Edison Int’l, 575 U.S. 523, 135 S. Ct. 1823, 1828 (2015)
(quoting Cent. States, Se. & Sw. Areas Pension Fund v. Cent. Transp.,
Inc., 472 U.S. 559, 570 (1985)).
13

Tatum v. RJR Pension Inv. Comm., 761 F.3d 346, 356 (4th Cir.
2014) (quoting Donovan v. Bierwirth, 680 F.2d 263, 272 n.8 (2d Cir.
1982)).
14

Bussian v. RJR Nabisco, Inc., 223 F.3d 286, 294 (5th Cir. 2000).

-App. 6aand diligence under the circumstances then prevailing
that a prudent man acting in a like capacity and familiar
with such matters would use in the conduct of an
enterprise of a like character and with like aims.”15 The
duty to diversify requires a fiduciary to “diversify[] the
investments of the plan so as to minimize the risk of large
losses, unless under the circumstances it is clearly
prudent not to do so.”16 ERISA also requires fiduciaries to
adhere to a duty of loyalty and to act in accordance with
the plan insofar as it does not conflict with the Act.17 To
state a claim under this section, a plaintiff must plausibly
allege that a fiduciary breached one of these duties,
causing a loss to the employee benefit plan.18
Plaintiffs contend that the Fiduciaries breached their
duty to diversify under § 1104(a)(1)(C) and their duty of
prudence under § 1104(a)(1)(B) by failing to consider
reducing their holdings in the ConocoPhillips Funds.
A.
The Fiduciaries first argue that Plaintiffs’ claims
never get off the ground because the ConocoPhillips
Funds are “qualifying employer securities,” which are
statutorily exempt from “the diversification requirement
of [§ 1104(a)(1)(C)] and the prudence requirement (only to
the extent that it requires diversification) of [§
1104(a)(1)(B)].”19 The Fiduciaries contend that the
ConocoPhillips Funds were employer securities when
15

29 U.S.C. § 1104(a)(1)(B).

16

Id. § 1104(a)(1)(C).

17

Id. § 1104(a)(1)(A), (D).

18

2009).
19

Braden v. Wal-Mart Stores, Inc., 588 F.3d 585, 594 (8th Cir.
29 U.S.C. § 1104(a)(2).

-App. 7athey were issued by ConocoPhillips and therefore
retained that status after separating from Phillips 66.
But ERISA’s plain text does not support this
conclusion. A qualifying employer security is a “security
issued by an employer of employees covered by the plan,
or by an affiliate of such employer.”20 An employer is a
party “acting directly as an employer, or indirectly in the
interest of an employer, in relation to an employee benefit
plan.”21 So an employer security is one that is issued by a
party “acting . . . as an employer” “of employees covered
by the plan.”22
Although ConocoPhillips had employed the Phillips 66
Plan’s participants, Phillips 66 is the only entity now
“acting” as the employer of employees covered by the
Phillips 66 Plan. The ConocoPhillips Funds are qualifying
employer stock only if they were issued by Phillips 66.23
They were not. The ConocoPhillips Funds were not
“employer securities” after the spin- off and were no
longer exempt from the duties under § 1104(a)(1)(B) and
(C).
B.
Under § 1104(a)(1)(C), fiduciaries have a duty to
“diversify[] the investments of the plan so as to minimize
the risk of large losses, unless under the circumstances it
20

29 U.S.C. § 1107(d)(1); see id. § 1107(d)(5).

21

Id. § 1002(5) (emphasis added).

22

Id. §§ 1002(5), 1107(d)(1).

23

Our reading of the statute is informed by a private letter ruling
by the Internal Revenue Service. I.R.S. Priv. Ltr. Rul. 201427024
(July 3, 2014). As the district court noted, although the IRS’s
interpretation is not binding, it has persuasive force “because it
addresses the precise issue in question—whether an employer
security retains that character after a spinoff.”

-App. 8ais clearly prudent not to do so.”24 This duty looks to a
pension plan as a whole, not to each investment
option.25Plaintiffs argue that the Fiduciaries breached this
duty by holding an excessive percentage of Plan assets in
ConocoPhillips Funds, exposing participants to a high risk
of large losses. They rely primarily on a case in which
fiduciaries for a defined benefit plan breached their duty
to diversify by placing 23% of plan assets in a single
investment.26
But the duty to diversify under § 1104(a)(1)(C) imposes
obligations on fiduciaries for defined benefit plans that are
different from those for defined contribution plans, like
the Phillips 66 Plan. As fiduciaries for defined benefit
plans choose the investments and allocate the plan’s
assets, they must ensure the plan’s assets as a whole are
well diversified. The fiduciaries for a defined contribution
plan, however, only select investment options; the
participants then choose how to allocate their assets to the
available options. These fiduciaries therefore need only
provide investment options that enable participants to
create diversified portfolios; they need not ensure that
participants actually diversify their portfolios.27 Plaintiffs
24

Id. § 1104(a)(1)(C).

25

Young v. Gen. Motors Inv. Mgmt. Corp., 325 F. App’x 31, 33 (2d
Cir. 2009) (unpublished) (emphasis added) (“The language of [§
1104(a)(1)(C)] contemplates a failure to diversify claim when a plan is
undiversified as a whole.”).
26

Marshall v. Glass/Metal Ass’n & Glaziers & Glassworkers
Pension Plan, 507 F. Supp. 378, 384 (D. Haw. 1980).
27

See, e.g., Yates v. Nichols, 286 F. Supp. 3d 854, 864 (N.D. Ohio
2017) (“[T]he plan participants themselves—rather than the
[fiduciaries]—decide how to allocate their contributions among the
plan’s investment options. The [fiduciaries], in other words, have no
ability to enforce the diversification requirement on the participants.
All they can do, it would seem, is offer a diversified menu of

-App. 9ahave not alleged that the Fiduciaries did not offer
sufficient investment options or failed to warn Plan
participants of the risk of a concentrated portfolio, as we
will explain. As a result, their § 1104(a)(1)(C) claim fails.
C.
The duty of prudence requires that fiduciaries act
“with the care, skill, prudence, and diligence under the
circumstances then prevailing that a prudent man acting
in a like capacity and familiar with such matters would use
in the conduct of an enterprise of a like character and with
like aims.”28Fiduciaries must determine that each
investment “is reasonably designed, as part of the
portfolio[,] . . . to further the purposes of the plan, taking
into consideration the risk of loss and the opportunity for
gain.”29 They also must “give[] appropriate consideration
to those facts and circumstances that . . . [they] know[] or
should know are relevant to the particular
investment.”30In short, prudence requires fiduciaries to
consider the totality of the circumstances.31 In so doing,
investment options. What seems most critical, then, at “least in terms
of the [fiduciaries’] diversification duty, is the range of investment
options available to the participants.”).”
28

U.S.C. § 1104(a)(1)(B).

29

29 C.F.R. § 2550.404a-1(b)(2)(i).

30

Id. § 2550.404a-1(b)(1)(i); see Langbecker v. Elec. Data Sys.
Corp., 476 F.3d 299, 307 n.13 (5th Cir. 2007) (citing § 2550.404a1(b)(1)(i)–(ii)).
31

Bussian, 223 F.3d at 299 (“What the appropriate methods [of
investigation] are in a given situation depends on the ‘character’ and
‘aim’ of the particular plan and decision at issue and the
‘circumstances prevailing’ at the time a particular course of action
must be investigated and undertaken.”); Donovan v. Cunningham,
716 F.2d 1455, 1467 (5th Cir. 1983) (“The prudent man rule as codified
in ERISA is a flexible standard[.]”); DiFelice v. U.S. Airways, Inc.,

-App. 10afiduciaries must engage in a reasoned decision- making
process for investigating the merits of each investment
option32 and ensure that each one “remain[s] in the best
interest of plan participants.”33
The parties engage over the prudence of retaining the
ConocoPhillips Funds without undertaking a proper
investigation. Plaintiffs allege that single-stock funds are
inherently imprudent because they expose investors to
extreme volatility and risk, and they argue that the duty
of prudence requires each individual fund in a plan to be
diversified. The Fiduciaries respond that the Plaintiffs’
duty-of-prudence claim fails under the Supreme Court’s
decision in Dudenhoeffer, and that requiring each fund to
be diversified would conflict with modern portfolio theory,
which evaluates the prudence of an investment in the
context of a portfolio as a whole.
1.
There are two wings of Plaintiffs’ duty-of-prudence
claim. The first alleges the Fiduciaries should have known
from publicly available information that the stock market
underestimated the risk of holding ConocoPhillips stock.
Dudenhoeffer addressed this line of argument, holding
that “where a stock is publicly traded, allegations that a
fiduciary should have recognized from publicly available
information alone that the market was over- or
497 F.3d 410, 420 (4th Cir. 2007) (explaining that evaluating the
prudence of an investment decision requires a totality-of-thecircumstances inquiry that takes into account “the character and aim
of the particular plan and decision at issue and the circumstances
prevailing at the time”) (internal quotation marks omitted).
32

Langbecker, 476 F.3d at 308 n.18; see also DiFelice, 497 F.3d at

33

Tatum, 761 F.3d at 358.

423.

-App. 11aundervaluing the stock are implausible as a general rule,
at least in the absence of special circumstances.”34 In so
doing, Dudenhoeffer effectively foreclosed claims, like
Plaintiffs’, that a fiduciary should have known from public
information that the market underestimated the risk of
holding a publicly traded security.35
That said, Dudenhoeffer and its progeny do not apply
to the second wing of Plaintiffs’ argument: that the
ConocoPhillips Funds were imprudent because of the risk
inherent in failing to diversify. Unlike the claim in
Dudenhoeffer, this claim does not turn on publicly
available information or whether Fiduciaries can beat the
market.36 Moreover, Dudenhoeffer and our subsequent
decisions all involved employer securities, which are
exempt from the duty of prudence “to the extent that it
requires diversification.”37 They do not address the
prudence of holding a single-stock fund in the first place.
As a result, this second wing of Plaintiffs’ duty-ofprudence claim does not implicate Dudenhoeffer and is not
foreclosed by it.
2.
34

Dudenhoeffer, 573 U.S. at 426 (emphasis added).

35

See Kopp v. Klein, 894 F.3d 214, 219–20 (5th Cir. 2018) (per
curiam); Singh v. RadioShack Corp., 882 F.3d 137, 146–47 (5th Cir.
2018) (per curiam).
36

By the Efficient Market Hypothesis and modern portfolio
theory, stock prices in efficient markets do not reflect risks that an
investor could eliminate through diversification. JEFFREY J. HAAS,
CORPORATE FINANCE 113 (2014) (“Under portfolio theory, the
market return received by an investor on a particular stock in a
competitive market does not include any compensation for the
investor shouldering [business-specific] risk. Indeed, the market does
not reward investors who fail to diversify this risk down to zero.”).
37

29 U.S.C. § 1104(a)(2).

-App. 12aPlaintiffs claim that holding a single-stock fund is
imprudent per se because of the risk inherent in holding
an undiversified asset. But ERISA contains no prohibition
on individual account plans’ offering single-stock funds.
Rather, it requires fiduciaries to provide in each benefit
statement to participants “an explanation . . . of the
importance . . . of a well-balanced and diversified
investment portfolio, including a statement of the risk that
holding more than 20 percent of a portfolio in the security
of one entity (such as employer securities) may not be
adequately diversified[.]”38 A per se rule against singlestock funds would also conflict with the fact-specific focus
of the duty of prudence,39 as well as with ERISA’s
legislative history and implementing regulations, which
clarify that single-stock investments can be a prudent
investment option.40
Yet, courts have expressed concern about the
prudence of single-stock funds, recognizing that a singlestock investment option may be imprudent in some
circumstances, as it may encourage investors to put too
many eggs in one basket.41 The Supreme Court has
observed that, as single-stock funds, qualifying employer
38

Id. § 1025(a)(2)(B).

39

Tatum, 761 F.3d at 360 (rejecting argument that “nonemployer, single stock funds are imprudent per se due to their
inherent risk”) (alteration and internal quotation omitted).
40

Id.; H.R. REP. NO. 93–1280 (1974) (Conf. Rep.), reprinted in
1974 U.S.C.C.A.N. 5038, 5085–86; 29 C.F.R. § 2550.404c–1(f)(5).
41

DeFelice, 497 F.3d at 424 (“[A]lthough placing retirement funds
in any single-stock fund carries significant risk
, and so would seem generally imprudent for ERISA purposes,
Congress has explicitly provided that qualifying concentrated
investment in employer stock does not violate the ‘prudent man’
standard per se.”).

-App. 13asecurities are “not prudently diversified.”42Likewise, the
Seventh Circuit recognized that because employer
securities are undiversified, “[t]here is a sense in which”
they are “imprudent per se, though legally authorized.”43
Because of the “built-in ‘imprudence,’” the court warned
that fiduciaries for plans investing in employer securities
must be “especially careful to do nothing to increase the
risk faced by the participants still further.”44 The Fourth
Circuit also recognized in DiFelice that while there is no
per se bar on single-stock funds, such funds “carr[y]
significant risk, and so would seem generally imprudent
for ERISA purposes.”45 Indeed, Plaintiffs have plausibly
alleged that the ConocoPhillips Funds, by its resulting
concentration of investment, became an imprudent
investment with the spinoff.
But it does not follow that the Fiduciaries were
obligated to force Plan participants to divest from the
Funds. “ERISA does not require fiduciaries of [a defined
contribution plan] to act as personal investment advisers
to plan participants . . . Such a plan gives participants the
control by design, and it gives employees the
responsibility and freedom to choose how to invest their
funds.”46
No “rule . . . forbids plan sponsors to allow participants to
make their own choices.”47 ERISA imposed other
42

Dudenhoeffer, 573 U.S. at 416 (internal citation omitted).

43

Armstrong v. LaSalle Bank Nat. Ass’n, 446 F.3d 728, 732 (7th
Cir. 2006) (Posner, J.).
44

Id.

45

DiFelice, 497 F.3d at 424.

46

White v. Marshall & Ilsley Corp., 714 F.3d 980, 994 (7th Cir.
2013), abrogated by Dudenhoeffer, 573 U.S. 409.
47

Loomis v. Exelon Corp., 658 F.3d 667, 673 (7th Cir. 2011). Nor

-App. 14aobligations, which the Fiduciaries met. They repeatedly
provided Plan participants with the statutorily mandated
warning against holding “more than 20 percent of a
portfolio in the security of one entity.”48 For example,
Phillips 66’s January 2016 Summary Plan Description
highlighted the risk of holding a single-stock fund:
Funds that hold the common stock of a single
company, such as the Phillips 66 Stock Fund, are
generally considered a higher risk investment
than a fund that holds many different stocks, such
as actively managed funds described above. The
advantage of an actively managed fund is that not
all of the stocks within a fund will have price
movements in the same direction at the same
time, and this reduces investment risk when
compared to a single stock.
The Summary Plan Description also explained the
importance of diversification to its participants:
WHY DIVERSIFICATION MATTERS
As the saying goes, “don’t put all your eggs in one
basket.” This is especially true when investing for
retirement. Maintaining a mix of stocks, bonds
and short-term investments in your plan account
can help manage your investment risk.

does any rule bar fiduciaries from forcing divestment. See Tatum, 761
F.3d 346.
48

29 U.S.C. § 1025(a)(2)(B).

-App. 15aThis “diversification” is a key principle of sound
investing. The idea is that when one type of asset
is doing poorly, another may be doing well. For
example, if your stock funds are losing value, your
bond steady. Of course, the opposite may also
occur, where your bond funds lose value while
your stock are going up. And there may be times
when it seems that every type of investment is
losing value.
How much of your account you should allocate to
the different asset classes depends on you — your
financial goals, your tolerance for risk, your other
assets and needs, and how much time you have
until retirement.
By closing the ConocoPhillips Funds to new
investments immediately after the spin-off, the
Fiduciaries also ensured that they were not offering
participants an imprudent investment option.49 At that
point, while blocked from adding more “eggs to the
basket,” Plaintiffs were free to sell off their investments
at any time and reinvest in other funds. With a rising
market, they chose to retain the ConocoPhillips Funds for
over two years, balancing the risk of a want of portfolio
diversity against the rising values of ConocoPhillips
stock—a risk against which the Fiduciaries urged caution.
49

See Langbecker, 476 F.3d at 308 n.18 (“Under ERISA, the
prudence of investments or classes of investments offered by a plan
must be judged individually.”); see also DiFelice, 497 F.3d at 423–24
(rejecting the view that “any single-stock fund, in which that stock
existed in a state short of certain cancellation without compensation,
would be prudent if offered alongside other diversified Funds”).

-App. 16aThey cannot enjoy their autonomy and now blame the
Fiduciaries for declining to second guess that judgment.
Finally, Plaintiffs argue that the district court erred in
dismissing their claim that the Fiduciaries failed to
comply with their duty “to follow a regular, appropriate,
systematic procedure to evaluate the ConocoPhillips
Funds as investments in the Plan.” We considered and
rejected a similar argument in Kopp v. Klein.50 There,
beneficiaries argued that—separate and “apart from any
substantive imprudence—the [d]efendants breached their
‘procedural’ duty of prudence by failing to meet and
discuss a possible course of action regarding the Plan’s
investment in [the challenged] stock.”51 Their claim failed,
however, as it rested solely on the fiduciaries’ procedural
lapses.52Plaintiffs’ claim here fails for the same reason.
IV.
We affirm the district court’s dismissal of Plaintiffs’
suit.

50

894 F.3d at 221.

51

Id. at 220–21.

52

Id. at 221; accord Brown v. Medtronic, Inc., 628 F.3d 451, 461
(8th Cir. 2010) (holding that a claim alleging a breach of the duty to
monitor and inform the plan committee “cannot survive without a
sufficiently pled theory of the underlying breach” of the duty-ofprudence claim).

-App. 17a-

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JEFFERY
SCHWEITZER,
JONATHAN SAPP,
RAUL RAMOS, and
DONALD FOWLER, on
behalf of the Phillips 66
Savings Plan and a class
of all others similarly
situated,
Plaintiffs,
v.

§
§
§
§
§
§
§
§
§
§
§
§
THE INVESTMENT
§
COMMITTEE OF THE
§
PHILLIPS 66 SAVINGS §
PLAN, SAM FARACE,
§
and JOHN DOES 1-10,
§
Defendants. §

CIVIL ACTION
NO. H-17-3013

MEMORANDUM OPINION AND ORDER
Plaintiffs, Jeffery Schweitzer, Jonathan Sapp, Raul
Ramos, and Donald Fowler, bring this action pursuant to
Sections 404, 405, 409, and 502 of the Employee
Retirement Income Security Act (“ERISA”), 29 U.S.C. §§

-App. 18a1104, 1105, 1109, and 1132, on behalf of the Phillips 66
Savings Plan (the “Plan” or the “Phillips 66 Plan”) and a
class of similarly situated participants in the Plan whose
retirement assets were invested in the “ConocoPhillips
Stock Fund” and the “ConocoPhillips Leveraged Stock
Fund” (together, the “ConocoPhillips Funds”) through
the Plan during the period from May 2, 2012, to the date
of judgment in this action (the “Class Period”)1 against
defendants, the Investment Committee of the Phillips 66
Savings Plan (the “Committee”), individual members of
the Investment Committee, John Does 1 through 10, and
Sam Farace, the Plan’s Financial Administrator
(collectively “Defendants”) . Pending before the court is
Defendants the Investment Committee of the Phillips 66
Savings Plan and Sam Farace’s Motion to Dismiss
Plaintiffs’ Class Action Complaint with Brief in Support
(“Defendants’ Motion to Dismiss”) (Docket Entry No. 15).
For the reasons explained below, Defendants’ Motion to
Dismiss will be granted.
I.
Factual and Procedural Background2
Phillips 66 Company, Inc. (“Phillips 66”) was
incorporated in Delaware in 2011 as a wholly owned
subsidiary
of
ConocoPhillips
Corporation
(“ConocoPhillips”) On April 30, 2012, Phillips 66 was spunoff from ConocoPhillips and became a separate,
independent company. As a result of the spinoff
approximately 12,000 former ConocoPhillips employees
1

Class-Action Complaint (“Complaint”) , Docket Entry No. 1, p.
1 ¶ 1. All page number citations are to the pagination imprinted by the
federal court’s electronic filing system at the top and right of the
document.
2

See id. ¶¶ 13-89.

-App. 19abecame Phillips 66 employees. Phillips 66 established the
Plan on May 1, 2012, for Phillips 66 employees in
connection with the spinoff. The Plan is an employee
benefit plan within the meaning of ERISA Sections 3(3)
and 3(2) (A), 29 U.S.C. §§ 1002 (3) and 1002 (2) (A). The
Plan is a “defined contribution” or “individual account”
plan that maintains individual accounts for each
participant within the meaning of ERISA Section 3 (34),
29 U.S.C. § 1002 (34).3 Participants designate the manner
in which amounts allocated to their accounts will be
invested in an array of investment funds. ConocoPhillips
employees are not eligible to participate in the Plan.
Assets of Phillips 66 employees who were former
ConocoPhillips employees that were held in participant
accounts under the ConocoPhillips Savings Plan
(“ConocoPhillips Plan”) were transferred to the Phillips
66 Plan. Included among the assets transferred from the
ConocoPhillips Plan to the Phillips 66 Plan were shares of
ConocoPhillips stock. The shares were originally
3

A defined contribution plan does not pay any fixed or
determinable benefits. Instead, benefits will vary depending on the
amount of plan contributions, the investment success of the plan, and
allocations made of benefits forfeited by non-vested participants who
terminate their employment. Thus, the amount of benefits is based, in
part, on the earnings generated by the plan. Both defined benefit and
defined contribution plans can provide for employee contributions.
The individual accounts for all participating employees reflect each
participant’s share in the underlying trust assets and are adjusted
annually to take into account plan contributions, earnings, and
forfeitures. Defined benefit plans ordinarily do not maintain
individual accounts, except to the extent necessary under the Internal
Revenue Code to record benefits attributable to voluntary
contributions by employees. SEC Release No. 33-6188, 1980 WL
29482, at *6-7 (Feb. 1, 1980).

-App. 20acontributed by ConocoPhillips to an employee stock
ownership plan (“ESOP”) and held in the ConocoPhillips
Funds of the ConocoPhillips Plan. After the spinoff the
shares became part of the ConocoPhillips Funds in the
Phillips 66 Plan. The ConocoPhillips Funds invested
exclusively in ConocoPhillips stock. The ConocoPhillips
Funds were closed to new investments after the spinoff,
but participants of the Phillips 66 Plan could “exchange
out of the funds at any time.”4
The Board of Directors of Phillips 66 appointed the
Phillips 66 Savings Plan Committee. The Committee is a
named fiduciary with respect to the general
administration of the Plan having “all powers necessary or
desirable to discharge the duties relating to the
administration of the Plan as are delegated to it by the
Plan and Trust Agreements. . . . “5 Defendant Sam Farace
is the Plan Financial Administrator who “shall be a
fiduciary and shall have responsibility to manage and
control the assets of the Plan in accordance with the terms
of the Plan. . . .”6
Plaintiffs allege that Defendants breached their
fiduciary duties of diversification and prudence by
retaining the ConocoPhillips Funds in the Plan after the
spinoff because the ConocoPhillips stock no longer
qualified as an “employer security” under ERISA.

4

ConocoPhillips U.S. Employee Transition Guide, Exhibit 8 to
Defendants’ Motion to Dismiss, Docket Entry No. 15-8, p. 6.
5

Phillips 66 Savings Plan, Exhibit 9 to Defendants’ Motion to
Dismiss, Docket Entry No. 15-9, p. 65.
6

Id.

-App. 21aDefendants move to dismiss Plaintiffs’ claims for failure to
state a claim under Rule 12 (b) ( 6) .7
II.

Standard of Review

Under Rule 8 of the Federal Rules of Civil Procedure
a pleading must contain “a short and plain statement of
the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8 (a) (2). A Rule 12(b) (6) motion tests the
formal sufficiency of the pleadings and is “appropriate
when a defendant attacks the complaint because it fails to
state a legally cognizable claim.” Ramming v. United
States, 281 F.3d 158, 161 (5th Cir. 2001), cert. denied sub
nom. Cloud v. United States, 122 S. Ct. 2665 (2002). The
court must accept the factual allegations of the complaint
as true, view them in a light most favorable to the plaintiff,
and draw all reasonable inferences in the plaintiff’s favor.
Id.
To defeat a motion to dismiss pursuant to Rule 12 (b) (
6) a plaintiff must plead “enough facts to state a claim to
relief that is plausible on its face.” Bell Atlantic Corp. v.
Twombly, 127 S. Ct. 1955, 1974 (2007). “A claim has facial
plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft
v. Iqbal, 129 S. Ct. 1937, 1949 (2009) (citing Twombly, 127
S. Ct. at 1965). “The plausibility standard is not akin to a
‘probability requirement,’ but it asks for more than a
sheer possibility that a defendant has acted unlawfully.”
Id. (quoting Twombly, 127 S. Ct. at 1965). “Where a
complaint pleads facts that are ‘merely consistent with’ a
defendant’s liability, it ‘stops short of the line between

7

Defendants’ Motion to Dismiss, Docket Entry No. 15.

-App. 22apossibility and plausibility of entitlement to relief.’“ Id.
(quoting Twombly, 127 S. Ct. at 1966).
When considering a motion to dismiss, district courts
are “limited to the complaint, any documents attached to
the complaint, and any documents attached to the motion
to dismiss that are central to the claim and referenced by
the complaint.” Lone Star Fund v (U.S.), L.P. v. Barclays
Bank PLC, 594 F.3d 383, 387 (5th Cir. 2010). “Federal
courts are required to dismiss, pursuant to Federal Rule
of Civil Procedure 12 (b) (6), claims based on invalid legal
theories, even though they may be otherwise wellpleaded.” Flynn v. State Farm Fire and Casualty
Insurance Co. (Texas), 605 F. Supp. 2d 811, 820 (W.D. Tex.
2009) (citing Neitzke v. Williams, 109 S. Ct. 1827, 1832
(1989)) . “[W] hen the allegations in a complaint, however
true, could not raise a claim of entitlement to relief, this
basic deficiency should be exposed at the point of
minimum expenditure of time and money by the parties
and the court.” Cuvillier v. Taylor, 503 F.3d 397, 401 (5th
Cir. 2007) (quoting Twombly, 127 S. Ct. at 1964-65)
(quotations omitted); see also Exxon Mobil Corp. v. FX
Networks, LLC, 39 F. Supp. 3d 868, 870-71 (S.D. Tex.
2014) .
Claims asserted under ERISA are subject to the
notice pleading standard of Federal Rule of Civil
Procedure 8, which “substitute[d] the requirement of ‘a
short and plain statement of the claim showing that the
pleader is entitled to relief’ for the technical formula, such
as ‘facts constituting a cause of action,’ which typified the
preexisting codes.” Heimann v. National Elevator
Industry Pension Fund, 187 F.3d 493, 509 (5th Cir. 1999),
overruled on other grounds, Arana v. Ochsner Health
Plan, 338 F.3d 433 (5th Cir. 2003) (quoting Charles A.

-App. 23aWright and Arthur R. Miller, Federal Practice and
Procedure, § 1202 at 68 (2d ed. 1990)). See also
Swierkiewicz, 122 S. Ct. at 998 (Rule 8 is a simplified notice
pleading standard that applies to all civil actions, with
limited exceptions, i.e., those enumerated in Rule 9 (b) ,
and requires merely a statement that gives the defendant
fair notice of what the plaintiff’s claim is and the grounds
upon which it rests.).
III.

Applicable Law

A. ERISA
ERISA is a statutory scheme enacted by Congress to
protect employees’ rights to benefits while also
encouraging employers to develop employee benefits
programs. Martinez v. Schlumberger, Ltd., 338 F.3d 407,
411 (5th Cir. 2003) (citing Edward E. Bintz, Fiduciary
Responsibility Under ERISA: Is There Ever a Fiduciary
Duty to Disclose?, 54 U. Pitt. L. Rev. 979, 979 (1993)).
“ERISA assigns to plan fiduciaries ‘a number of detailed
duties and responsibilities, which include the proper
management, administration, and investment of [plan]
assets, the maintenance of proper records, the disclosure
of specific information, and the avoidance of conflicts of
interest.’“ Laborers National Pension Fund v. Northern
Trust Quantitative Advisors, Inc., 173 F.3d 313, 317 (5th
Cir.), cert. denied, 120 S. Ct. 406 (1999) (quoting Mertens
v. Hewitt Associates, 113 S. Ct. 2063, 2066 (1993)).
ERISA requires employee benefit plans to be
established and maintained pursuant to a written
instrument that provides for one or more “named
fiduciaries who jointly or severally shall have authority to
control and manage the operation and administration of
the plan.” 29 U.S.C. § 1102 (a) (1).

-App. 24a[T] he term “named fiduciary” means a fiduciary
who is named in the plan instrument, or who,
pursuant to a procedure specified in the plan, is
identified as a fiduciary (A) by a person who is an
employer or employee organization with respect to
the plan or (B) by such an employer and such an
employee organization acting jointly.
29 U.S.C. § 1102(a) (2). Persons or entities who are not
named as fiduciaries in plan documents but who exercise
discretionary authority and control that amounts to actual
decision-making power are also plan fiduciaries. 29 U.S.C.
§ 1002(21) (A). “A fiduciary within the meaning of ERISA
must be someone acting in the capacity of manager,
administrator, or financial adviser to a ‘plan.’“ Pegram v.
Herdrick, 120 S. Ct. 2143, 2151 (2000) (citing 29 U.S.C. §
1002 (21) (A) {i)- (iii)). “‘[A] person is a fiduciary only with
respect to those aspects of the plan over which he
exercises authority or control.’“ Bannistor v. Ullman, 287
F.3d 394, 401 (5th Cir. 2002) (quoting Sommers Drug
Stores Co. Employee Profit Sharing Trust v. Corrigan
Enterprises, Inc., 793 F.2d 1456, 1459-60 (5th Cir. 1986) 1
cert. denied, 107 s. Ct. 884 (1987)). “[F]iduciary status is
to be determined by looking at the actual authority or
power demonstrated, as well as the formal title and duties
of the party at issue.” Landry v. Air Line Pilots Ass’n
Intern. AFL-CIO, 901 F.2d 404, 418 (5th Cir.), cert.
denied, 111 S. Ct. 244 (1990). The issue of fiduciary status
is a mixed question of law and fact. Reich v. Lancaster, 55
F.3d 1034, 1044 (5th Cir. 1995).
B. Fiduciary Duties under ERISA
(1) [A] fiduciary shall discharge his duties with
respect to a plan solely in the interest of the
participants and beneficiaries and-

-App. 25a(A) for the exclusive purpose of:
(i) providing benefits to participants and
their beneficiaries; and
(ii) defraying reasonable
administering the plan;

expenses

of

(B)

with the care, skill, prudence, and diligence
under the circumstances then prevailing
that a prudent man acting in a like capacity
and familiar with such matters would use in
the conduct of an enterprise of a like
character and with like aims;

(C)

by diversifying the investments of the plan
so as to minimize the risk of large losses,
unless under the circumstances it is clearly
prudent not to do so; and

(D)

in accordance with the documents and
instruments governing the plan insofar as
such documents and instruments are
consistent with the provisions of this
subchapter and subchapter III.

29 U.S.C. § 1104(a)(1).
C. Remedies for Breach
ERISA makes fiduciaries liable for breach of their
duties and specifies the remedies available against them.
Mertens, 113 S. Ct. at 2066 (citing 29 U.S.C. § 1109(a)).
ERISA allows any plan participant, beneficiary, or
fiduciary to bring a civil action “for -9- Case 4:17-cv-03013
Document 48 Filed on 05/09/18 in TXSD Page 9 of 30
appropriate relief under section 1109.” Id. at 2066-67
(quoting 29 U.S. C. § 1132 (a) (2)).
IV.

Defendants’ Motion to Dismiss

-App. 26aDefendants do not dispute the Committee’s status as a
fiduciary of the Plan or Sam Farace’s status as the Plan
Administrator and named fiduciary within the meaning of
ERISA, 29 U.S.C. §§ 1002 (16) (A), (21) (A) and§ 1102 (a)
(2). Defendants argue that they are exempt from ERISA’
s diversification requirement because the ConocoPhillips
shares retain their character as employer securities after
the spinoff under ERISA Section 407 (d) (1)8 and that
Plaintiffs have failed to plead facts to state a claim for
breach of the duty of prudence and the duty to diversify.9
A. Employer Security
Under ERISA an eligible individual account plan
(“EIAP”) as defined in 29 U.S.C. § 1107(d) (3) that invests
in “qualifying employer securities” exempts fiduciaries
from the duty to diversify. ERISA§ 404 (a) (2), 29 U.S.C.
§ 1104 (a) (2); Fifth Third Bancorp v. Dudenhoeffer, 134 S.
Ct. 2459, 2467 (2014). Plaintiffs do not dispute that the
Plan is an EIAP. An “employer security” is “a security
issued by an employer of employees covered by the plan,
or by an affiliate of such employer.” ERISA§ 407 (d) (1),
29 U.S.C. § 1107(d) (1). Plaintiffs allege that the shares of
ConocoPhillips stock no longer qualify as “employer
security” after Phillips 66 separated from ConocoPhillips
because ConocoPhillips no longer was the employer of
employees covered by the plan or an affiliate of such
employer.10 See id. No court has addressed whether, after
a spinoff resulting in two independent companies, shares

8

Defendants’ Motion to Dismiss, Docket Entry No. 15, pp. 13-18.

9

Id. at 19-24 .

10

Complaint, Docket Entry No. 1, pp. 12-13 ~~ 50-55.

-App. 27aof stock that were “employer securities” before the spinoff
retain that character after the spinoff.
Defendants argue that because ConocoPhillips was the
“employer” that “issued” the ConocoPhillips shares
before the spinoff, the shares retain their status of
“employer securities” after the spinoff.11 Defendants cite
Manor Care of America, Inc. v. Property & Casualty
Insurance Guaranty Corp., 185 F. App’x 308, 309, 311 (4th
Cir. 2006) (per curium) in support of their argument that
under the plain language of the statute, “whether a stock
qualifies as an employer security is evaluated at the time
of issuance.”12 In Manor Care the Fourth Circuit held that
to be eligible for insurance coverage, “a policyholder must
have been a Maryland resident when the policy was
issued, not when the claim is submitted.” 185 F. App’x at
311. It reasoned that the phrase “issued to a resident
unmistakably tethers the residency requirement to a
particular event, the issuance of the policy.” Id.
Defendants argue that “[w]hether a security qualifies as
an employer security under ERISA is likewise ‘tethered’
to the time of issuance of the security.”13 Plaintiffs respond
that Defendants “ignor[e] that neither ERISA’S language
nor its history supports [Defendants’] desired outcome.”14
The statute at issue in Manor Care did not involve
ERISA. The meaning of the word “issue” “cannot be
determined in isolation, but must be drawn from the
context in which it is used.” Henrikson v. Guzik, 249 F.3d
11

Defendants’ Motion to Dismiss, Docket Entry No. 15, p. 13.

12

Id. at 13-14.

13

Id. at 14.

14

Plaintiffs’ Response in Opposition to Defendants’ Motion to
Dismiss (“Plaintiffs’ Response”), Docket Entry No. 38, p. 14.

-App. 28a395, 398 (5th Cir. 2001) (citations omitted). “It is important
to look to the structure and language of the statute as a
whole.” Id. The decision in Manor Care as to the meaning
of “issued” in the context of Maryland insurance law has
little relevance in deciding the issue before the court.
Defendants also Tatum v. RJR Pension Investment
Committee, 761 F.3d 346 (4th Cir. 2014), in support of
their interpretation of 29 U.S.C. § 1107 (d) (1) because it
“illustrates what undoubtedly would have happened had
Defendants forced divestment of participant holdings of
the ConocoPhillips stock around the time of the spinoff.”15
In Tatum, RJR Nabisco spun off its tobacco business,
RJR, from its food business, Nabisco. Tatum, 761 F.3d at
351. After the spinoff RJR forced the divestment of the
Nabisco shares held by employees in their 401(k)
accounts. Id. at 354. The plaintiff alleged that the plan
fiduciaries breached their duties by eliminating Nabisco
stock from the plan without conducting a thorough
investigation. Id. at 355. The district court determined
that “nothing in the law or regulations required that the
Nabisco Funds be removed from the Plan.” Tatum v. R.J.
Reynolds Tobacco Co., 926 F. Supp. 2d 648, 680 (M.D.
North Carolina 2013) . The district court held that RJR
breached its fiduciary duty of procedural prudence when
it “decided to remove and sell Nabisco stock from the Plan
without undertaking a proper investigation into the
prudence of doing so” but that RJR met its burden of
proving that its decision was objectively prudent. Id. at
651. The Fourth Circuit upheld the district court’s ruling
that RJR breached its duty of procedural prudence but
15

Defendants’ Motion to Dismiss, Docket Entry No. 15, pp. 14-15.

-App. 29aremanded the action to determine whether RJR met its
burden of proving that a prudent fiduciary would have
made the same decision under the circuit’s articulated
standard. Tatum, 761 F.3d at 361, 368.
Defendants argue that “[l]ikewise, at the time
ConocoPhillips shares were issued to the participants,
they were indisputably employer securities under ERISA,
and nothing in the law or regulations should be read to
require divestment of those shares simply due to a change
in the nominal employer of the participants.”16 Defendants
argue that under Plaintiffs’ interpretation of “employer
security,” “ERISA plans would, at a minimum, feel
increased pressure to force participants to divest stock
like the Nabisco stock, due to the fact that fiduciaries
would no longer be exempt from ERISA’S diversification
requirements with respect to such holdings.”17 Plaintiffs
respond that on remand the district court in Tatum
reviewed extensive evidence and held that RJR fiduciaries
acted prudently when they divested the plan’s holdings in
Nabisco stock.18 Tatum v. R.J. Reynolds Tobacco
Company, Civil Action No. 1:02-00373, 2016 WL 660902 at
*23 (M.D. North Carolina, Feb. 18, 2016). Plaintiffs argue
that “[t]his analysis would have been completely
irrelevant if, following the spin-off, Nabisco stock was still
an ‘employer security’ for the plan at issue.”19
The issue in Tatum was RJR’ s lack of investigation before
forcing divestiture of the plan’s shares in Nabisco. The Fourth
Circuit did not determine whether the Nabisco shares retained
16

Id. at 15-16.

17

Id. at 16.

18

Plaintiffs’ Response, Docket Entry No. 38, p. 15

19

Id. at 15.

-App. 30atheir status as employer securities after the spinoff. Although
Defendants argue that fiduciaries would “feel increased
pressure to force participants to divest stock like the Nabisco
stock,” the teaching of Tatum is that the fiduciaries would
merely feel pressure to evaluate the prudence of keeping the
legacy stock as an investment option -- just as they would
evaluate the prudence of including other investments in a plan.
Plaintiffs argue that Defendants’ interpretation of
“employer security” to include a prior employer’s shares is
incorrect because under ERISA an “employer” means “acting
directly as an employer, or indirectly in the interest of an
employer, in relation to an employee benefit plan. “20 29
U.S.C. § 1002 (5) (emphasis added). Plaintiffs argue that
ConocoPhillips stock is not an “employer security” because
“the only ‘employer of employees covered by the Plan’ is
Phillips 66. ConocoPhillips stock was not issued by Phillips 66
or an affiliate of Phillips 66. “21 The Plan names Phillips 66
as the “employer.”22 The Plan is an ESOP that “shall
consist primarily of Company Stock purchased by the
Trustees holding the assets.”23 The Plan defines
“Company Stock” as shares “issued by Phillips 66, which
shall constitute ‘employer securities.’ ”24 Although Article
XXIII of the Plan is titled “Special Provisions for Former
Participants in the Retirement Savings Plan of
ConocoPhillips Company,”25 it does not state that
ConocoPhillips remained an employer, or that its shares
20

Id. at 10.

21

Plaintiffs ‘ Response, Docket Entry No. 38, p. 10.

22

Phillips 66 Savings Plan, Exhibit 9 to Defendants’ Motion to
Dismiss, Docket Entry No. 15-9, p. 10, Article I definition 30.
23

Id. at 32, Article VI section 7.

24

Id. at 9, Article I definition 18.

25

Id. at 82, Article XXIII.

-App. 31awere employer securities under the Phillips 66 Plan. The
court concludes that the language of the Phillips 66 Plan
supports Plaintiffs’ argument that shares of
ConocoPhillips stock were not employer securities of the
Plan after the spinoff. See In re Ford Motor Co. ERISA
Litigation, 590 F.Supp.2d 883, 903–04 (E.D. Mich. 2008)
(determining whether a Plan is an ESOP by reviewing the
terms of the Plan).
Plaintiffs also cite the Internal Revenue Code Private
Letter
Ruling
201427024
(“PLR”).26
Because
ConocoPhillips ceased to be the employer of the
participants of the Plan after the spinoff, Plaintiffs argue
that under the PLR “[ConocoPhillips] shares are not
employer securities with respect to [the] Plan.” I.R.S.
PLR 201427024 (July 3, 2014). Defendants respond that
the IRS “does not have regulatory or enforcement
authority with respect to the relevant provisions of
ERISA” and that the PLR evaluated securities under the

26

Plaintiffs’Response, Docket Entry No. 38, p. 12.

PLR 201427024 states:
[F] ollowing the Spin-Off, Company B ceased to be the employer
of the participants covered under Plan X, and Company A ceased to
be the employer of the participants covered under Plan Y. In addition,
Company A and Company Bare no longer affiliated employers within
the meaning of section 407(d)(7) of ERISA since Company A and
Company B will not be members of the same controlled group of
corporations as determined under section 1563(a) of the Code (except
substituting 50 percent for 80 percent). Since section 407(d)(1) of
ERISA defines “employer security” as a security issued by an
employer of employees covered by the plan or by an affiliate of such
an employer, following the Spin-Off, Company B shares are not
employer securities with respect to Plan X, and Company A shares
are not employer securities with respect to Plan Y.

-App. 32aInternal Revenue Code, not ERISA.27 Although the IRS’s
Private Letter Ruling is not binding precedent, it is
persuasive because it addresses the precise issue in
question—whether an employer security retains that
character after a spinoff.
Finally, Plaintiffs argue that ownership of
ConocoPhillips stock does not promote the purpose of
ERISA’s “employer securities” exemption to “bring about
stock ownership by all corporate employees.”28
Defendants respond that their interpretation is supported
by ERISA’s policies because it encourages employee
ownership “without the possibility that employees could
be forced to divest of securities merely because of a
corporate transaction that later changed the identity of
their employer.”29 ESOPs are designed to promote
employee ownership of employer stock, and Congress
supports ESOPs’ use for that purpose. Fifth Third
Bancorp, 134 S.Ct. at 2468–70. Companies use ESOPs to
encourage employee participants to focus on company
performance and share price appreciation since the
participants themselves are shareholders. Because
Phillips 66 became an independent company following the
spinoff, participant ownership of ConocoPhillips stock
would not promote the purposes of ESOPs.
Having carefully considered the parties’ arguments
and authorities the court concludes that shares of
27

Defendants’ Motion to Dismiss, Docket Entry No. 15, pp. 17-18.

28

Plaintiffs’ Response, Docket Entry No. 38, p. 13 (citing Fifth
Third Bancorp, 134 S. Ct. at 2469)
29

Defendants the Investment Committee of the Phillips 66
Savings Plan and Sam Farace’s Reply in Support of Their Motion to
Dismiss Plaintiffs’ Class Action Complaint (“Defendants’ Reply”),
Docket Entry No. 43, pp. 9-10.

-App. 33aConocoPhillips stock are not employer securities and that
Defendants are therefore not exempt from ERISA’s
diversification requirement with respect to the
ConocoPhillips Funds.
B. Duty to Diversify
Fiduciaries must “diversify[ ] the investments of the plan
so as to minimize the risk of large losses, unless under the
circumstances it is clearly prudent not to do so.” 29 U.S.C.
§ 1104(a)(1)(C). “As a general proposition, ERISA’s duty
to diversify prohibits a fiduciary from investing
disproportionately in a particular investment or
enterprise.” In re Unisys Savings Plan Litigation, 74 F.3d
420, 438 (3d Cir. 1996). As the Fifth Circuit has explained:
The degree of investment concentration that
would violate this requirement to diversify cannot
be stated as a fixed percentage, because a fiduciary
must consider the facts and circumstances of each
case. The factors to be considered include (1) the
purposes of the plan; (2) the amount of the plan
assets; (3) financial and industrial conditions; (4)
the type of investment, whether mortgages, bonds
or shares of stock or otherwise; (5) distribution as
to geographical location; (6) distribution as to
industries; (7) the dates of maturity.
Metzler v. Graham, 112 F.3d 207, 209 (5th Cir. 1997)
(quoting H.R. Rep. No. 1280, 93d Cong., 2d Sess. (1974),
reprinted in 1974 U.S.C.C.A.N. 5038, 5084–85 (Conf. Rpt.
at 304) ). The court also noted that “[w]e think it is entirely
appropriate for a fiduciary to consider the time horizon
over which the plan will be required to pay out benefits in
evaluating the risk of large loss from an investment

-App. 34astrategy.” Id. at 210 n.6. “To establish a violation, a
plaintiff must demonstrate that the portfolio is not
diversified ‘on its face.’ ” Id. at 209. Once Plaintiff
establishes that a plan is not diversified on its face, “the
burden shift[s] to the defendant to show why under the
circumstances it was prudent not to diversify the
investments of the plan.” In re Dell, Inc. ERISA
Litigation, 563 F.Supp.2d 681, 690 (W.D. Tex. 2008) (citing
Metzler, 112 F.3d at 209).
Plaintiffs allege that Defendants breached their duty
to diversify “by failing to diversify Plan investments”30
because *619 the Plan had more than 25% of its assets
invested in the ConocoPhillips Funds at the beginning of
the Class Period and “continued to hold an excessive
amount of assets in the ConocoPhillips Funds.”31 Plaintiffs
allege that “Defendants took no actions to diversify the
Plan’s assets and end the Plan’s investments in the
ConocoPhillips Funds”32 and that “Defendants’ failure to
properly diversify the Plan’s assets caused the Plan to
suffer tens of millions of dollars in losses during the Class
Period.”33
In support of their Motion to Dismiss Defendants
argue that (1) the Plan offered a diverse menu of
investment options in which participants could invest their
assets; (2) the extent of the Plan’s holdings in
ConocoPhillips was attributable to the participants’
elections to retain the ConocoPhillips stock; and (3)
section 404(c) of ERISA relieves plan fiduciaries of
30

Complaint, Docket Entry No. 1, p. 24, 105.

31

Id. at 19, 80-81.

32

Id. at 25, 107.

33

Id.

-App. 35aliability for losses that result from a participant’s exercise
of control.34
Defendants rely heavily on Yates v. Nichols, 286
F.Supp.3d 854 (N.D. Ohio 2017).35 The facts of Yates are
similar to those of this case: After a spinoff of one company
from another, a retirement plan participant sued the plan
administrator, the investment committee, and members of
that committee for breach of the fiduciary duty to
diversify because they placed 6.5% of the plan’s total
assets into a fund holding only the legacy company’s stock.
Yates, 286 F.Supp.3d at 857. Like the Phillips 66 Plan, the
plan at issue in Yates was a defined contribution plan. Id.
The district court explained that “because ERISA
requires that fiduciaries diversify ‘the investments of the
plan,’ the statute ‘contemplates a failure to diversify claim
when a plan is undiversified as a whole.’ ” Id. at 863
(quoting Young v. General Motors Investment
Management Corp., 325 Fed.Appx. 31, 33 (2d Cir. 2009)
(unpublished opinion) ). The court held:
[E]valuating the plan as a whole makes good sense
when the plan at issue is ... a defined-contribution
plan where each participant has his or her own
account.
In these cases, the plan participants themselves–
34

Defendants’ Motion to Dismiss, Docket Entry No. 15, pp. 19-22.
Section 404(c) is an affirmative defense that is generally not suitable
for resolution by a 12(b)(6) motion. The court therefore has not
addressed Defendants section 404(c) argument
35

See Defendants the Investment Committee of the Phillips 66
Savings Plan and Sam Farace’s Notice of Supplemental Authority,
Docket Entry No. 24; Defendants’ Reply, Docket Entry No. 43, pp.
12-18.

-App. 36arather than the plan’s trustees or its investment
committee–decide
how
to
allocate
their
contributions among the plan’s investment options.
The trustees and the investment committee, in
other words, have no ability to enforce the
diversification requirement on the participants. All
they can do, it would seem, is offer a diversified
menu of investment options. What seems most
critical, then, at least in terms of the trustees’
diversification duty, is the range of investment
options available to the participants.
Here, there is no question that [the plan], taken as
a whole, offered diverse options.
Id. at 864.
The participants in the Phillips 66 Plan decide how to
allocate their contributions among the Plan’s investment
options,36 and *620 Plaintiffs do not challenge the diversity
of the investment options. “Defendants had little, if any,
authority under the Plan to ‘override’ the employee
investors’ decisions to [retain] [ConocoPhillips] stock in
order to diversify the actual holdings of the Plan.” In re
Dell, 563 F.Supp.2d at 690. “All they can do ... is offer a
diversified menu of investment options.” Yates, 286
F.Supp.3d at 864; see also In re Dynegy, Inc. ERISA
Litigation, 309 F.Supp.2d 861, 896 (S.D. Tex. 2004)
36

See Phillips 66 Savings Plan [Summary Plan Description] ,
Exhibit 2 to Defendants’ Motion to Dismiss, Docket Entry No. 15-2,
pp. 19, 21 (“Do I get to decide how my money is invested? Yes. In fact,
it’s your responsibility. . You can choose to invest in one or more of
the plan’s investment funds. . you can ‘mix and match’ your funds from
among all of the groups. Whichever funds you choose, you’re always
responsible for selecting and monitoring your investment choices.”).

-App. 37a(holding that because the self-directed portion of the plan
“always included an array of investment options” the
plaintiff “does not ... allege that the Plan was not
diversified on its face.”).
Plaintiffs challenge the fiduciaries’ decision not to
force divestiture of the assets in the ConocoPhillips
Funds. But the participants could “exchange out of the
funds at any time.”37 Because the participants could elect
to exchange their assets out of the ConocoPhillips Funds,
any amount of the Plan’s assets that remained invested in
the ConocoPhillips Funds was there by the participants’
choice. If plan participants choose to exchange their
holdings in ConocoPhillips Funds they may reinvest in the
remaining investment options of the Plan, which Plaintiffs
do not allege are not diversified. Dividends on the shares
of the ConocoPhillips Funds “will automatically be
reinvested according to [participants’] current investment
allocation election [in the Phillips 66 Plan].”38
Fiduciaries have a duty to diversify “investments of
the plan,” but the ConocoPhillips funds were “closed to
new investments.”39 Because the shares of ConocoPhillips
are no longer employer securities, a fiduciary’s decision to
allocate 25% of the plan’s assets to the ConocoPhillips
Funds might, hypothetically, violate the duty to diversify
the plan’s investments. But because the ConocoPhillips
Funds were no longer an investment option, and because
participants could remove their assets from the
ConocoPhillips Funds, the fiduciaries had no power to
37

ConocoPhillips U.S. Employee Transition Guide, Exhibit 8 to
Defendants’ Motion to Dismiss, Docket Entry No. 15-8, p. 6.
38

Id. at 7.

39

Id. at 6.

-App. 38aallocate assets to the ConocoPhillips Funds. The real issue
is not diversification but the prudence of the fiduciaries’
decision not to force divestiture. Because Defendants did
not mandate that participants’ assets remain in
ConocoPhillips Funds and because Plaintiffs do not allege
that the Plan’s other investment options are not
diversified, Plaintiffs fail to allege that the Plan was not
diversified on its face. Plaintiffs have therefore failed to
state a claim for relief based on a duty to diversify.
C. Prudence
Plaintiffs allege that Defendants breached their duty
of prudence by permitting participants to retain their
interests in the ConocoPhillips Funds in their accounts
after the spinoff.40 Plaintiffs allege that the ConocoPhillips
stock was an excessively risky and volatile investment and
thus an imprudent option.41
ERISA requires fiduciaries to discharge their duties
“with the care, skill, prudence, and diligence under the
circumstances then prevailing that a prudent man acting
in a like capacity and familiar with such matters would use
in the conduct of an enterprise of a like character and with
like aims.” 29 U.S.C. § 1104(a)(1)(B). The Fifth Circuit has
stated:
In determining compliance with ERISA’s prudent
man standard, courts objectively assess whether
the fiduciary, at the time of the transaction, utilized
proper methods to investigate, evaluate and
structure the investment; acted in a manner as
would others familiar with such matters; and
40

Complaint, Docket Entry No. 1, pp. 8-14, 32-76.

41

Id.

-App. 39aexercised independent judgment when making
investment decisions. “[ERISA’s] test of prudence
... is one of conduct, and not a test of the result of
performance of the investment. The focus of the
inquiry is how the fiduciary acted in his selection of
the investment, and not whether his investments
succeeded or failed.” Thus, the appropriate inquiry
is “whether the individual trustees, at the time they
engaged in the challenged transactions, employed
the appropriate methods to investigate the merits
of the investment and to structure the investment.”
Laborers National, 173 F.3d at 317 (citations omitted).
“This duty of prudence ‘trumps the instructions of a
plan document, such as an instruction to invest exclusively
in employer stock even if financial goals demand the
contrary.’ ” Singh v. RadioShack Corp, 882 F.3d 137, 144
(5th Cir. 2018) (per curium) (citing Dudenhoeffer, 134
S.Ct. at 2468.) The duty of prudence applies fully to
employee-owned stock ownership plans, except that
ESOPs need not be diversified. Dudenhoeffer, 134 S.Ct. at
2468. Dudenhoeffer establishes different standards for
duty-of-prudence claims based on public information
versus insider information. Id. at 2471–72. The Court held
that “where a stock is publicly traded, allegations that a
fiduciary should have recognized from publicly available
information alone that the market was over- or
undervaluing the stock are implausible as a general rule,
at least in the absence of special circumstances.” Id. at
2471. Unless special circumstances make the market
unreliable, “ERISA fiduciaries, who likewise could
reasonably see ‘little hope of outperforming the market ...
based solely on their analysis of publicly available
information,’ may, as a general matter, likewise prudently

-App. 40arely on the market price.” Id. Such “special
circumstances” must “affect [ ] the reliability of the
market price as ‘an unbiased assessment of the security’s
value in light of all public information.’ ” Id. at 2472.
Defendants argue that “Plaintiffs’ Complaint cannot
survive scrutiny under Dudenhoeffer and thus does not
state a claim for breach of the duty of prudence.”42
Plaintiffs respond that Dudenhoeffer does not apply
because unlike the shares of ConocoPhillips,
Dudenhoeffer involved employer securities that “fall
within ERISA’s limited exemption from normal
diversification considerations.”43 Plaintiffs argue that
“[w]here, as here, that exemption does not apply, failure
to properly diversify must be considered as part of a
prudence analysis.”44 The court is not persuaded by
Plaintiffs’ argument because in Dudenhoeffer the Court
stated that “the same standard of prudence applies to all
ERISA fiduciaries, including ESOP fiduciaries,” with the
limited exception that ESOP fiduciaries are “under no
duty to diversify the ESOP’s holdings.” Dudenhoeffer, 134
S.Ct. at 2467.
Plaintiffs allege that “the Plan’s highly concentrated
holding of ConocoPhillips stock at the time of the spin-off,
together with public information and ConocoPhillips’ poor
performance, were red-flags to Defendants that the
ConocoPhillips stock was not a prudent investment for the
Plan.”45 Plaintiffs’ claim that Defendants breached the
duty of prudence by holding the ConocoPhillips Funds is
42

Defendants’ Motion to Dismiss, Docket Entry No. 15, p. 24.

43

Plaintiffs’ Response, Docket Entry No. 38, p. 27.

44

Id.

45

Id. at 28.

-App. 41abased on publicly available information such as the
Vanguard Institutional Index Fund,46 ConocoPhillips’ 10–
K,47 the price of ConocoPhillips stock,48 the price of oil,49
website articles,50 and other “publicly available
information [that] showed the riskiness of ConocoPhillips
stock.”51 In the absence of special circumstances, the claim
is implausible. Dudenhoeffer, 134 S.Ct. at 2471; see also
Singh, 882 F.3d at 146 (holding that because “the overall
decline in the price of [defendant’s] stock during the class
period shows that the market accounted for [ ] negative
[public] information ... Plaintiffs’ public-information
claims are implausible under Dudenhoeffer’s general
rule”). Plaintiffs have neither alleged in their Complaint
nor argued in their Response that any “special
circumstances” are present. Because Plaintiffs have not
identified
any
plausible
special
circumstances
undermining the market price as a measure of
ConocoPhillips’ value, Plaintiffs fail to state a claim for
breach of the duty of prudence based on public
information. See Singh, 882 F.3d at 147 (holding that the
defendant’s heavy debt load and bond-market indicators
that the defendant would likely default do not qualify as
special circumstances because “the stock market
presumably incorporated that information into the price
of [defendant’s] stock.”).
D. Failure to Engage in Adequate Process
46

Complaint, Docket Entry No. 1, p. 10, 40.

47

Id. at 10, 43.

48

Id. at 13-16, 57, 65, 67-68.

49

Id. at 14, 59-62.

50

Id. at 15-17 63, 69, 74.

51

Id. at 16, 69

-App. 42aPlaintiffs allege that “Defendants had a duty to follow
a regular, appropriate systematic procedure to evaluate
the ConocoPhillips Funds as investments in the Plan.
They breached that duty and failed to conduct an
appropriate investigation of continued investment in the
ConocoPhillips Funds.”52 Plaintiffs also allege that
“ConocoPhillips remained an investment option for the
Plan’s participants because Defendants did not follow an
appropriate process in evaluating the prudence of the
ConocoPhillips Funds.”53
“[T]o plead plausibly a breach of the duty of prudence
for failure to investigate, plaintiffs must allege facts that,
if proved, would show that an adequate investigation
would have revealed to a reasonable fiduciary that the
investment at issue was improvident.” Rinehart v.
Lehman Bros. Holdings Inc., 817 F.3d 56, 67 (2d Cir. 2016)
(internal quotations and citations omitted).
But when the alleged facts do not “directly address
[ ] the process by which the Plan was managed,” a
claim alleging a breach of fiduciary duty may still
survive a motion to dismiss if the court, based on
circumstantial factual allegations, may reasonably
“infer from what is alleged that the process was
flawed.” To survive a motion to dismiss, a plaintiff
may “allege facts sufficient to raise a plausible
inference that ... a superior alternative investment
was readily apparent such that an adequate
investigation would have uncovered that
alternative.”

52

Complaint, Docket Entry No. 1, p. 24, 102.

53

Id. at 11, 45.

-App. 43aMain v. American Airlines Inc., 248 F.Supp.3d 786, 793
(N.D. Tex. 2017) (quoting Pension Benefits Guaranty
Corp. ex rel. St. Vincent Catholic Medical Centers
Retirement Plan v. Morgan Stanley Investment
Management Inc., 712 F.3d 705, 716 (2d Cir. 2013)
(quoting Braden v. Wal–Mart Stores, Inc., 588 F.3d 585,
596 (8th Cir. 2009) ) ). “For instance, the complaint may
allege facts sufficient to raise a plausible inference that the
investments at issue were so plainly risky at the relevant
times that an adequate investigation would have revealed
their imprudence[.]” Pension Benefits, 712 F.3d at 719.
Plaintiffs’ Complaint contains only legal conclusions
with no specific factual allegations about the process
Defendants engaged in. Moreover, Plaintiffs fail to allege
that an adequate investigation would have revealed
anything other than the publicly available information
allegedly establishing that the ConocoPhillips Funds were
a risky investment option. Because Plaintiffs’ allegations
restate their claim for breach of the duty of prudence
based on public information, Dudenhoeffer forecloses
their claim. Therefore, Plaintiffs fail to state a claim for
failure to engage in an adequate process for evaluating the
prudence of continuing to hold the ConocoPhillips Funds.
E. Claims for Co–Fiduciary Liability
In addition to any liability that a fiduciary may have under
any other provision of ERISA, 29 U.S.C. § 1105(a)
provides that
a fiduciary with respect to a plan shall be liable for a
breach of fiduciary responsibility of another fiduciary
with respect to the same plan in the following
circumstances:
(1) if he participates knowingly in, or knowingly

-App. 44aundertakes to conceal, an act or omission of such
other fiduciary, knowing such act or omission is a
breach;
(2) if, by his failure to comply with section
1104(a)(1) of this title in the administration of his
specific responsibilities which give rise to his status
as a fiduciary, he has enabled such other fiduciary
to commit a breach; or
(3) if he has knowledge of a breach by such other
fiduciary, unless he makes reasonable efforts
under the circumstances to remedy the breach.
Plaintiffs allege that the Committee and its individual
members and Sam Farace are liable as co-fiduciaries for
each other’s breaches of their fiduciary duties.54 Because
the court has concluded that the allegations against all
Defendants fail to state a claim for which relief may be
granted, the court concludes that Plaintiffs have also
failed to state claims against Defendants for co-fiduciary
liability.
V. Conclusions and Order
For the reasons set forth above, Defendants The
Investment Committee of The Phillips 66 Savings Plan
and Sam Farace’s Motion to Dismiss Plaintiffs’ Class
Action Complaint (Docket Entry No. 15) is GRANTED.
SIGNED at Houston, Texas, on this the 9th day of May,
2018.

54

Complaint, Docket Entry No. 1, pp. 25-26, 109-116.

-App. 45aSIM LAKE
UNITED STATES DISTRICT JUDGE

-App. 46a-

APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

JEFFERY
SCHWEITZER,
JONATHAN SAPP,
RAUL RAMOS, and
DONALD FOWLER,
on behalf of the Phillips
66 Savings Plan and a
class of all others
similarly situated,
Plaintiffs,
v.
THE INVESTMENT
COMMITTEE OF THE
PHILLIPS 66
SAVINGS PLAN,
SAM FARACE, and
JOHN DOES 1-10,
Defendants.

CIVIL ACTION NO.
H-17-3013
(Consolidated)

-App. 47aZAM A TIRAM, on behalf of
the Phillips 66 Savings Plan,
himself, and a class consisting
of similarly situated
participants of the Plan,
Plaintiffs,
v.
PHILLIPS 66 COMPANY,
GREG C. GARLAND,
PAULA A.
JOHNSON,BRIAN R.
WENZEL, JOHN D.
ZUKLIC, PHILLIPS 66
SAVINGS PLAN
COMMITTEE,
INVESTMENT
COMMITTEE, BENEFIT
COMMITTEE,
PLAN FINANCIAL
ADMINISTRATOR, PLAN
BENEFITS
ADMINISTRATOR,
GREGG. MAXWELL,
KEVIN MITCHELL, JESSE
A. STEPHAN, ALEX J.
SHABET, and JOHN DOES
1-20,
Defendants.

CIVIL ACTION NO.
4:l 7-cv-03740

-App. 48aAMENDED FINAL JUDGMENT
In accordance with the court’s Memorandum Opinion and
Order granting Defendants’ Motion to Dismiss, this action
is DISMISSED WITH PREJUDICE.
The dismissal applies to all plaintiffs in this consolidated
action-including Plaintiffs Jeffery Schweitzer, Jonathan
Sapp, Raul Ramos, Zam Atiram, and Donald Fowler.
Costs are taxed against the Plaintiffs.
This is a FINAL JUDGMENT.
SIGNED at Houston, Texas, on this the 15th day of
May, 2018.

Sim Lake
United States District Judge

.

-App. 49a-

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-20379
JEFFERY SCHWEITZER; JONATHAN SAPP;
RAUL RAMOS; DONALD FOWLER,
Plaintiffs - Appellants
v.
THE INVESTMENT COMMITTEE OF THE
PHILLIPS 66 SAVINGS PLAN; SAM FARACE;
JOHN DOES 1-10, INCLUSIVE,
Defendants – Appellees
Appeal from the United States District Court
for the Southern District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion May 22, 2020, 5 Cir., _____, _____ F.3d _____)

-App. 50aBefore HIGGINBOTHAM, SMITH, and HIGGINSON,
Circuit Judges.
PER CURIAM:
(x) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. No member of the panel nor
judge in regular active service of the court having
requested that the court be polled on Rehearing En
Banc (FED. R. APP. P. and 5TH CIR. R. 35), the Petition
for Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. The court having been
polled at the request of one of the members of the
court and a majority of the judges who are in regular
active service and not disqualified not having voted
in favor (FED. R. APP. P. and 5TH CIR. R. 35), the
Petition for Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:

UNITED STATES CIRCUIT JUDGE

